<html>
<title> - BUILDING A DIVERSE AND INCLUSIVE WORKFORCE TO MEET THE HOMELAND SECURITY MISSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
    BUILDING A DIVERSE AND INCLUSIVE WORKFORCE TO MEET THE HOMELAND 
                            SECURITY MISSION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2020

                               __________

                           Serial No. 116-63

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                            __________
                               
                               
                               
                              ______                      


                 U.S. GOVERNMENT PUBLISHING OFFICE 
 41-931 PDF                 WASHINGTON : 2020                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Jefferson Van Drew, New Jersey
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Ms. Angela Bailey, Chief Human Capital Officer, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Ms. Yvonne D. Jones, Director, Strategic Issues, U.S. Government 
  Accountability Office:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
  


    BUILDING A DIVERSE AND INCLUSIVE WORKFORCE TO MEET THE HOMELAND 
                            SECURITY MISSION

                              ----------                              


                      Thursday, February 27, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Barragan, and 
Crenshaw.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order. Thank you so 
much for your patience as we had to move this around a bit 
because of votes.
    Good afternoon. We are here today to discuss the Department 
of Homeland Security--DHS's--effort to cultivate a diverse and 
inclusive work force. Across the Department's wide and varied 
missions, one thing remains constant: The importance of a work 
force that is as diverse as the homeland it seeks to protect.
    The committee last held a hearing on this topic in 2009 
after learning that racial minorities constituted only 20 
percent of the DHS work force and 10 percent of leadership 
positions. At that time the committee heard from the Department 
about some of its efforts to recruit and retain a more diverse 
talent.
    Ten years later, those numbers have improved, with higher 
representation of minorities, women, and people with 
disabilities in the DHS work force. But the Department still 
has a way to go to achieve equal representation across the 
Department and increase the number of minorities and women in 
leadership positions.
    Vital to ensuring that these goals are met is a commitment 
to better understanding the barriers and developing plans to 
address those barriers.
    In some areas, the Department has taken steps to do this. 
In 2014, a DHS review of women in law enforcement found that 
the Department employed fewer female law enforcement officers 
than the rest of the Federal Government. The review found that 
some women felt the working environment forced them to choose 
between their career and their families.
    Additionally, a 2018 study of why women leave the United 
States Coast Guard found that women were leaving the component 
at much higher rates than men. The study noted that this was 
due in part to gender bias and the belief that women had to 
work twice as hard to prove themselves as men and were not 
given the same advancement opportunities.
    In response, DHS began implementing a mentorship program 
for women in law enforcement positions last year and had 36 
pairs of mentors and mentees.
    Currently, women hold on average 25 percent of the 
positions in DHS law enforcement agencies. So I look forward to 
seeing if this new mentorship program helps the Department 
retain and promote more women in these positions.
    The Department also struggles to ensure its most crucial 
mission areas incorporate the views of traditionally 
underserved populations. In areas like emergency management, 
border security, and domestic terrorism prevention, it is vital 
that the Department proactively consider and directly 
communicate with all communities. Confusion, miscommunication, 
and distrust in emergency situations can lead to unnecessary 
loss of life.
    Unfortunately, we saw this play out in the delayed disaster 
assistance in Puerto Rico after Hurricane Maria due to an 
insufficient number of bilingual employees. FEMA's lack of 
Spanish-speaking employees caused problems throughout the 
disaster response and contributed to delays in getting 
assistance to people who needed it most.
    This serves as a reminder of the importance of including 
people with diverse backgrounds in the formulation of plans, 
policies, and procedures. DHS's mission is best served by 
ensuring that women, minorities, and people with disabilities 
not only have the opportunity to participate but also to lead.
    I look forward to hearing from our witnesses today about 
how DHS is working to identify the various challenges its 
components face in creating a diverse and inclusive working 
environment and how the Department is meeting those challenges.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                           February 27, 2020
    We are here today to discuss the Department of Homeland Security's 
(DHS) efforts to cultivate a diverse and inclusive workforce. Across 
the Department's wide and varied missions one thing remains constant: 
The importance of a workforce that is as diverse as the homeland it 
seeks to protect.
    The committee last held a hearing on this topic in 2009 after 
learning that racial minorites constituted only 20 percent of the DHS 
workforce and 10 percent of leadership positions. At that time the 
committee heard from the Deparment about some of its efforts to recruit 
and retain more diverse talent.
    Ten years later those numbers have improved, with higher 
representation of minorities, women, and people with disabilities in 
the DHS workforce. But the Department still has a way to go to achieve 
equal representation across the Department and increase the number of 
minorities and women in leadership positions.
    Vital to ensuring that these goals are met is a commitment to 
better understanding the barriers and developing plans to address them. 
In some areas, the Department has taken steps to do this. In 2014, a 
DHS review of women in law enforcement found that the Department 
employed fewer female law enforcement officers than the rest of the 
Federal Government. The review found that some women felt the working 
environment forced them to choose between their career and having a 
family.
    Additionally, a 2018 study of why women leave the U.S. Coast Guard 
found that women were leaving the component at much higher rates than 
men. The study noted that this was due in part to gender bias and a 
belief that women had to work twice as hard to prove themselves as men, 
and were not given the same advancement opportunities.
    In response, DHS began implementing a mentorship program for women 
in law enforcement positions last year and had 36 pairs of mentors/
mentees. Currently women hold, on average, 25 percent of positions in 
DHS law enforcement agencies so I look forward to seeing if this new 
mentorship program helps the Department retain and promote more women 
in those positions.
    The Department also struggles to ensure that its most crucial 
mission areas incorporate the views of traditionally underserved 
populations. In areas like emergency management, border security, and 
domestic terrorism prevention, it's vital that the Department 
proactively consider and directly communicate with all communities. 
Confusion, miscommunication, and distrust in emergency situations can 
lead to unnecessary loss of life.
    Unfortunately we saw this play out in the delayed disaster 
assistance in Puerto Rico after Hurricane Maria due to an insufficient 
number of bilingual employees. FEMA's lack of Spanish-speaking 
employees caused problems throughout the disaster response, and 
contributed to delays in getting assistance to the people who needed it 
most. This serves as a reminder of the importance of including people 
with diverse backgrounds in the formulation of plans, policies, and 
procedures.
    DHS's mission is best served by ensuring that women, minorities, 
and people with disabilities not only have the opportunity to 
participate but to lead.
    I look forward to hearing from our witnesses today about how DHS is 
working to identify the various challenges its components face in 
creating a diverse and inclusive working environment and how the 
Department is meeting those challenges.

    Ms. Torres Small. The Chair now recognizes the Ranking 
Member of the subcommittee, the gentleman from Texas, Mr. 
Crenshaw, for an opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small, and I 
appreciate the opportunity to discuss diversity at the 
Department of Homeland Security.
    As we all know, the more than 200,000 people that work at 
DHS carry out a wide-ranging and increasingly difficult mission 
to protect Americans and our way of life. It is their 
dedication to protecting the homeland and the American people 
that drives the success of DHS as a whole.
    It is for that reason that we must continue to ensure that 
the DHS work force is prepared for the job at hand.
    America is a diverse country, and American citizens have a 
wide range of backgrounds and experiences. DHS has stated that 
to perform its mission well, it must rely on a work force as 
diverse as our country itself. DHS has put in place many 
initiatives and programs to accomplish that goal.
    Fostering a sense of inclusion within DHS helps the agency 
promote collaboration, creativity, innovation, and high 
performance. This helps detect blind spots, empowers employees 
to lead and trust their teammates, and fosters a devotion to 
the mission at DHS.
    Since its inception in 2003, DHS has come a long way in 
fostering a diverse work force that includes a strong 
representative population from all minority groups, as well as 
women and veterans.
    As of January 2020, the DHS work force is made up of 22 
percent Hispanic or Latino, 16 percent Black or African 
American, and 8 percent American Indian or Alaska Native and 
Native Hawaiian or Pacific Islander. Of the nearly 200,000 
employees, 35 percent are women and more than 25 percent are 
veterans.
    Current efforts at DHS, like developing robust internship 
programs, recruiting at minority-serving institutions, and 
veterans hiring initiatives will all help in continuing this 
progress, especially at Senior Executive Services levels.
    I look forward to hearing more about the recruitment 
efforts and how the Department is working to promote diversity 
throughout its policies from the Chief Human Capital Officer.
    Policies and procedures at DHS are also part of a holistic 
approach to diversity at DHS. The Government Accountability 
Office has reviewed how DHS manages equal employment 
opportunity policies that include training, leadership 
development, and other efforts to create an inclusive 
workplace.
    The review included 6 recommendations to DHS, and DHS 
concurred with all 6. The implementation process for these 
recommendations at DHS is currently under way, and I look 
forward to discussing the progress today.
    Diversity in the workplace can help DHS with its underlying 
mission of protecting Americans. Congress has an important role 
to play in ensuring that they have the tools they need to meet 
this goal.
    We also must recognize that painting DHS employees as bad 
people, uncaring, or saying the Department should be dissolved 
altogether is counter to this goal. Mean-spirited politics and 
the demonization of the DHS work force undermines the goal of 
hiring a more diverse work force.
    I hope that we can work together productively to identify 
opportunities for improvement across DHS's efforts at today's 
hearing.
    I yield back the balance of my time.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                             Feb. 27, 2020
    Thank you, Chairwoman Torres-Small.
    I appreciate the opportunity to discuss diversity at the Department 
of Homeland Security. As we all know, the more than 200,000 people that 
work at DHS carry out a wide-ranging and increasingly difficult mission 
to protect Americans and our way of life. It is their dedication to 
protecting the homeland and the American people that drives the success 
of DHS as a whole. It is for that reason, that we must continue to 
ensure the DHS workforce is prepared for the job at hand.
    America is a diverse country and American citizens have a wide 
range of backgrounds and experiences. DHS has stated that to perform 
its mission well, it must rely on a workforce as diverse as our country 
itself. DHS has put in place many initiatives and programs to 
accomplish that goal.
    Fostering a sense of inclusion within DHS helps the agency promote 
collaboration, creativity and innovation, high performance. This helps 
detect blind spots, empowers employees to lead and trust their 
teammates, and foster a devotion to the mission of DHS.
    Since its creation in 2003, DHS has come a long way in fostering a 
diverse workforce that includes strong representative populations from 
all minority groups, as well as women and veterans. As of January 2020, 
the DHS workforce was made up of 22 percent Hispanic or Latino, 16 
percent Black or African American, and 8 percent American Indian or 
Alaska Native, and Native Hawaiian or Pacific Islander. Of the nearly 
200,000 employees, 35 percent are women and more than 25 percent are 
veterans.
    Current efforts at DHS--like developing robust internship programs, 
recruiting at minority-serving institutions, and veterans hiring 
initiatives will all help in continuing this progress, especially at 
Senior Executive Services level. I look forward to hearing more about 
recruitment efforts and how the Department is working to promote 
diversity throughout its policies from the chief human capitol officer.
    The policies and procedures at DHS are also a part of a holistic 
approach to diversity at DHS. The Government Accountability office has 
reviewed how DHS manages equal employment opportunity policies that 
include training, leadership development, and other efforts to create 
an inclusive workplace. Their review included 6 recommendations to DHS, 
and DHS concurred with all 6. The implementation process for these 
recommendations at DHS is currently under way and I look forward to 
discussing the progress today.
    Diversity in the workforce can help DHS with its underlying mission 
of protecting Americans. Congress has an important role to play in 
ensuring DHS has the tools its needs to meet this goal. But we must 
also recognize that painting DHS employees as bad people, uncaring, or 
saying that the Department should be dissolved altogether, is counter 
to this goal. Mean-spirited politics and demonization of the DHS 
workforce undermines the goal of hiring a more diverse workforce. I 
hope that we can work together, productively, to identify opportunities 
for improvement across DHS's efforts at today's hearing. I yield back 
my time.

    Ms. Torres Small. Thank you, Mr. Crenshaw.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           Feburary 27, 2020
    The last time the committee held a hearing on diversity and 
inclusivity at the Department of Homeland Security (DHS) was over a 
decade ago, when Democrats were last in the Majority. While 
representation of minorities, women, and people with disabilities has 
increased, I remain concerned about the Department's failure to develop 
an inclusive workforce. The homeland is best served by a workforce that 
is representative of our great country.
    Yet, DHS data shows----
  <bullet> Women make up only 35 percent of the Department's workforce;
  <bullet> People with disabilities make up a mere 11 percent and are 
        leaving the Department at higher than expected rates;
  <bullet> Minorities hold only 22 percent of the Department's most 
        senior leadership positions.
    Moreover, a closer look at the data shows that the diversity that 
does exist at DHS is concentrated in just a few of its components. 
Building an inclusive workforce is not just about ensuring the numbers 
look good. It is about better serving the American people by 
considering the wide variety of challenges facing different 
communities.
    In short, it is about building a Department of Homeland Security 
that is focused on protecting all of America. That is why it is crucial 
that the Department promote and advance a workforce to meet those 
challenges.
    It's simply not enough to hire diverse candidates at lower pay 
grades. Those populations must have leadership opportunities as well. 
Currently, leadership positions at DHS are still predominantly filled 
by white men, even in components that have a diverse workforce overall. 
The Transportation Security Administration, for example, has a 
workforce comprised of 55 percent racial minorities, yet only 21 
percent of senior leadership positions are filled by minorities.
    A lack of diverse leadership can have a direct, adverse effect on 
hiring, retention, and promotion of diverse candidates. A key step 
toward resolving this issue is ensuring the entire Department is 
committed to identifying barriers to employment equality and 
implementing plans to address those barriers.
    The Department must work toward better addressing the challenges it 
faces in creating a more equitable employment environment and thereby a 
stronger DHS. I hope to hear from Chief Human Capital Officer Bailey 
about the efforts the Department is undertaking to recruit more diverse 
candidates and retain those employees once hired.

    Ms. Torres Small. I now welcome our panel of witnesses, and 
thank you for joining us today.
    First, welcome back to Ms. Angela Bailey, the chief human 
capital officer of the Department of Homeland Security. In that 
role, she is responsible for the Department's Human Capital 
Program, including human resource policy, recruitment and 
hiring, and employee development. She has dedicated more than 
38 years to a career in public service, with 32 of those years 
in human resources. Ms. Bailey was appointed to her current 
position in January 2016.
    Our second witness, Ms. Yvonne Jones, is the director in 
the Government Accountability Office's Strategic Issues Team. 
She joined GAO in November 2003. Ms. Jones oversees human 
capital management issues, including diversity and inclusion 
issues, such as the participation rate of individuals with 
disabilities and the employment satisfaction of veterans in 
Federal service. She also leads GAO's work on Government-wide 
adoption of enhanced program and project management.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize her statement for 5 
minutes, beginning with Ms. Angela Bailey.

 STATEMENT OF ANGELA BAILEY, CHIEF HUMAN CAPITAL OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Bailey. Thank you. Chairwoman Torres Small, Ranking 
Member Crenshaw, and distinguished Members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss inclusive diversity at the U.S. Department of Homeland 
Security.
    DHS is one of the most ethnically and racially diverse 
agencies across the Federal Government, far surpassing 
Government-wide work force diversity percentages. Nearly 1 out 
of every 2 employees has identified themselves with a diverse 
racial or ethnic group. Almost one-third of DHS employees are 
millennials and over 50 percent of them identify as diverse.
    DHS has the largest percentage of Hispanics in the Federal 
work force by a large margin, 22 percent, higher than 9 percent 
working in the rest of the Federal Government or in private-
sector occupations comparable to our positions.
    Women comprise 35 percent of the DHS work force overall. In 
our non-law enforcement positions, women make up almost 50 
percent.
    This diversity is also reflected in our executives. Twenty-
two percent of our senior executives identify with a diverse 
racial or ethnic group, a number that is on par with the rest 
of the Federal work force. At DHS, women comprise nearly 30 
percent of our SES.
    DHS also strives to be a model employer for individuals 
with disabilities. Even regarding employees with the most 
severe disabilities, we have made tremendous progress and we 
have exceeded Federal hiring goals last quarter.
    Finally, I am extremely proud to talk about our veterans 
hiring at DHS. We are one of the leaders across the Federal 
Government. We have received the Council on Veterans 
Employment's highest rating of ``exemplary'' for the last 4 
years. Almost one-third of our employees are veterans, and 10 
percent of them live with a disability every single day, making 
us No. 1 among the agencies of similar sizes.
    While we have an exemplary record, we would like to do 
more. Our Enhanced Hiring Act proposal is designed to 
streamline our ability to hire veterans. We look forward to 
working with you to make this proposal a reality.
    Getting to these successful results has taken time and 
innovative thinking. In 2016, the Department shifted to a new 
way of thinking, moving from traditional diversity and 
inclusion to the concept of inclusive diversity. Inclusive 
diversity, which includes behaviors that promote collaboration 
and high performance, creativity and innovation, fairness and 
respect, is about deliberately and thoughtfully creating an 
environment where employees know they belong and where they 
feel their supervisor or someone at work cares about them.
    The concepts of caring and compassion are not new, but 
recognizing the importance in the effects they play on the 
operational readiness is groundbreaking in the Federal 
Government.
    DHS's commitment to inclusion is reflected in our 5 percent 
increase in the past 4 years on the Inclusion Index, a part of 
the FEVS. To continue this progress, we are investing and 
synchronizing our inclusion, engagement, and leadership 
development efforts.
    As I testified last month before this subcommittee, DHS has 
strengthened its agency-wide leadership development programs by 
providing more opportunities for lower-grade employees to begin 
their leadership journey.
    We know that these approaches help employees feel valued, 
and the cornerstone of our engagement, retention, and inclusion 
efforts is our Employee and Family Readiness program. DHS 
currently has 7 suites of programs in place all designed to 
deepen employees' sense of belonging, connection, and being 
cared for and within the Department.
    In closing, engaging the entire work force and sustaining 
the highest levels of integrity, accountability, and 
professionalism is paramount to promote and achieve the 
strategic vision we have for inclusive diversity. We understand 
that while we have made significant progress, we still have 
more work to do to achieve a fully inclusive culture.
    As we move forward, we will continue to embrace workplace 
cultures that are fair and respectful and value the unique 
contributions of each employee to enable all employees to 
achieve their full potential.
    Thank you again for this opportunity to testify today, and 
I look forward to your questions.
    [The prepared statement of Ms. Bailey follows:]
                  Prepared Statement of Angela Bailey
                           February 27, 2020
                              introduction
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
before you today to discuss inclusive diversity at the U.S. Department 
of Homeland Security (DHS or the Department).
    I am Angela Bailey, the Department's chief human capital officer. I 
joined DHS in January 2016 as a career Federal executive and have more 
than 38 years of service, 32 of those in human resources.
    The Department's compelling mission to make a difference in the 
lives of our fellow citizens encourages our workforce and draws 
candidates seeking to join the team, even though the threats and 
challenges facing DHS and the Nation are complex and constantly 
evolving. As a result, DHS is one of the most ethnically and racially 
diverse agencies across the Federal Government. Forty-seven percent of 
the DHS workforce identifies with a diverse racial or ethnic group, 
compared to 37 percent for the broader Federal workforce.
    As the chief human capital officer, inclusive diversity is one of 
my highest priorities and is taken seriously across DHS. Inclusion 
connects employees and diversity reflects the public we serve and helps 
build bridges with communities where we work. Our success, and the 
protection of the homeland, requires the engagement of all of us: 
Senior leaders, managers, and employees. DHS has made notable progress 
in its diversity and inclusion efforts, yet opportunities remain for 
continued improvement.
    Our DHS commitment to inclusion is reflected in our 5 percentage-
point increase in the past 4 years on the Inclusion Index, a part of 
the Federal Employee Viewpoint Survey (FEVS) that measures the extent 
to which employees believe they are recognized, valued, and respected. 
And, we will continue to do more.
    Diversity within the Department is also notable. Again, the DHS 
workforce is ethnically and racially diverse, far surpassing 
Government-wide workforce diversity percentages. DHS has the largest 
percentage of Hispanics in the Federal workforce by a large margin--22 
percent versus just under 9 percent--and higher than the 9 percent of 
Hispanics working in private-sector occupations analogous to our 
positions. Women comprise 35 percent of the DHS workforce overall, but 
in our non-law enforcement workforce, women comprise 46 percent of our 
workforce, slightly higher than the Government-wide number of 43 
percent.
    This diversity is also reflected in our executives. Twenty-two 
percent of our Senior Executives (SES) identify with a diverse racial 
or ethnic group, a number that is on par with the rest of the Federal 
workforce. At DHS, women comprise nearly 29 percent of our SESs, just 
slightly below the average for the total Federal workforce.
    DHS also strives to be a model employer for individuals with 
disabilities. Historically, individuals with disabilities comprised 
less than 10 percent of the DHS workforce. However, our determined 
focus in this area has been a significant driver for increases among 
new hires.
    In the first quarter of this fiscal year, just over 12 percent of 
new hires across DHS were individuals with disabilities, but several 
components have new hire rates well above 20 percent. Even regarding 
employment of individuals with targeted disabilities, or those with the 
most severe disabilities, we have made tremendous progress and hired 
over 2 percent in this quarter, exceeding the Federal goal.
    Finally, I am extremely proud to talk about our veterans hiring at 
DHS, which is considered one of the leaders across the Federal 
Government. We have received the Council on Veterans Employment's 
highest rating of ``Exemplary'' for 3 straight years and expect to 
achieve a fourth straight Exemplary rating for our efforts in fiscal 
year 2019. On-board at DHS, we have 26 percent veterans (a total of 
56,209 employees) and 10 percent veterans with disabilities--making us 
No. 1 among the agencies of similar size, i.e., Health and Human 
Services and the Departments of Justice, Treasury, and Agriculture. 
Already this fiscal year, more than 1 in 5 new hires were veterans and 
8 percent were veterans with disabilities.
                             a new paradigm
    Getting to these successful results has taken time and innovative 
thinking. In 2016, the Department shifted to a new way of thinking, 
moving from the traditional Diversity and Inclusion (D&I) paradigm to 
the concept of inclusive diversity. While the original D&I paradigm 
focused on elements such as race, ethnicity, and gender, inclusive 
diversity reaches beyond these characteristics to a broader swath of 
diversity such as generational status and neurodiversity. Inclusive 
diversity also emphasizes the essential role of the work environment 
and the importance of building inclusive workplaces.
    Specifically, inclusive diversity is comprised of a set of 
behaviors that promote collaboration and high performance, creativity 
and innovation, fairness and respect, and an environment where 
employees believe they belong. It empowers employees at every level and 
builds a culture of trust within teams. Inclusive diversity is 
comprised of people's perceptions of fairness and respect, i.e., are 
their experiences similar to others' in terms of opportunities, pay, 
and evaluation; do they feel value and belonging, which focuses more on 
the uniqueness of each person; whether they are part of formal and 
informal networks; and whether they have a voice in decision making.
    We recognize that inclusive diversity is critical to the way we 
attract and retain our workforce. For example, diversity helps guide 
many of our recruitment efforts, including our webinars, campus visits, 
and hiring events across the Nation at Minority-Serving Institutions 
(MSIs), including Historically Black Colleges and Universities (HBCUs), 
Hispanic-Serving Institutions, Asian American and Native American 
Pacific Islander-Serving Institutions, and Tribal Colleges and 
Universities.
    The Department has participated in the Congressional Black Caucus 
Foundation's Annual Legislative Conference and Career Fair, where in 
2019, DHS recruiters shared information about our mission and current 
job opportunities with 350 potential candidates. In 2019, we also 
attended Chairman Thompson's College and Career Fair in Mississippi. At 
this event in Greenville, DHS recruiters spoke collectively with 1,170 
students. At the most recent Career Expo for Individuals with 
Disabilities, recruiters spoke to 250 potential candidates and 
conducted on-site interviews. The Department conducts joint hiring 
events on military bases to highlight our veterans hiring and we hold 
events focused on recruiting more women into law enforcement. Finally, 
we use cyber-focused recruiting events to help build a cybersecurity 
workforce that is strong because of its diversity.
    In total, in fiscal year 2019, DHS hosted over 2,500 people on 
recruiting webinars and attended 5,099 recruiting events in order to 
attract a workforce that mirrors the public we serve, including 
visiting 223 MSIs (716 events) and 46 HBCUs (100 events).
    The Department has internship programs that attract hundreds of 
diverse students, teaching them about work at DHS, with the goal of 
hiring them after graduation. Our Pathways Programs supports hundreds 
of these interns as well as recent graduates and Presidential 
Management Fellows, and uses partnerships like the Urban Alliance, the 
CyberCorps: Scholarship for Service, and the Mayor Marion S. Barry 
Summer Youth Employment Program. Last year, we had 600 participants in 
these programs, but we want to do even more to attract diverse 
applicants to DHS. Our legislative proposal that has been submitted to 
Congress, the Enhanced Hiring Act, would build on these efforts and 
give DHS broad flexibility to determine how to recruit and provide 
public notice for mission-critical positions through more effective 
means, such as social media and campus recruitment (e.g., MSIs, HBCUs), 
as well as on military installations to reach even more potential 
applicants.
    While diversity hiring is key to our efforts, focusing only on 
hiring can cause a revolving door where we are constantly recruiting 
and hiring, and not looking at ensuring employees are included, 
engaged, and motivated to stay. Because we value the whole person, we 
use a three-pronged approach to retain employees and ensure they feel 
respected.
    Our exceptional inclusion and engagement efforts are one way to 
help with engagement, productivity, and innovation. For example, we 
have built a framework to help executive leaders identify measurable 
actions and activities to implement and cultivate a continued 
commitment to, and accountability for, inclusive diversity. We continue 
to build on a successful pilot program launching a Department-wide 
rollout of the Inclusive Diversity Dialogues Program, modeled after 
successful programs at the National Aeronautics and Space 
Administration, Department of Justice, and Office of Personnel 
Management. We provide unconscious bias awareness training for hiring 
managers, inclusive diversity training for executive leaders, and FEVS 
Inclusion Index-based train-the-trainer sessions to build a cadre of 
qualified trainers across the Department.
    As I testified last month before this subcommittee, DHS has also 
strengthened its agency-wide leadership development programs by 
providing more opportunities for lower-grade employees to begin their 
leadership journeys, have additional rotational experiences, and gain 
further career path guidance. We know that these approaches help 
employees feel valued. Examples include our brand-new leader 
development strategy, called the ``Leadership Bridges Program,'' 
introduced in fiscal year 2019. Instead of waiting to develop 
leadership skills at each level, this new program establishes a variety 
of products and tools for employees seeking to increase their 
capabilities and aspiring to higher leadership levels.
    Part of the Bridges program includes innovative, self-paced program 
training that meets the needs of our geographically-dispersed workforce 
and provides motivated employees--at any grade level--with a set of 
curated activities central to the development of essential supervisory 
leadership competencies. This training helps our front-line employees 
who are not in Washington, DC. The Bridges program is also piloting a 
6-month Supervisory Leadership Bridges Cohort program that will guide 
participants in specific job series through a rigorous process to 
identify traits validated as predictive of leadership success and build 
on those traits with classroom, mentoring, and experiential learning.
    The third prong of our engagement, retention, and inclusion efforts 
is our Employee and Family Readiness (EFR) program. DHS currently has 7 
suites of programs in place, all designed to deepen employees' sense of 
belonging, inclusion, and value inside the Department. Today we provide 
mindfulness courses to strengthen employee resilience and reduce 
stress; a financial literacy campaign to build financial wellness; 
stronger bonds training to improve relationships and communication; 
increased services for child and dependent care; a mental health 
initiative and resource center to help reduce stigma and increase 
utilization; and affinity groups for employees and spouses to build 
social connectedness with others who share the same background, 
challenges, or interests.
    Because all 7 EFR efforts are based on input received from DHS 
employees themselves, we are confident they will be successful both as 
specific subjects and as a reflection of the fact that DHS cared enough 
to listen. This innovative EFR program, combined with the Department's 
leadership development and diversity hiring efforts, as well as our 
inclusion activities, makes the DHS inclusive diversity program a 
balanced and robust model for the Federal Government.
                               conclusion
    As the Department works to secure our Nation, an inclusive and 
diverse workforce is critical to foster innovation, cultivate 
creativity, and elevate operational effectiveness. Together, these 
characteristics enhance our capabilities in all mission areas. 
Moreover, it is important that we have an agile workforce that can work 
across organizational and interpersonal boundaries and collaborate to 
address the Department's most complex and challenging issues.
    We must continue our efforts to build inclusive diversity across 
DHS to ensure we create a workplace where employees believe they 
belong, that we leverage unique employee talents, that we listen, and 
help build networks of shared experience while respecting individual 
uniqueness. We will further embed these principles into our broader 
strategies and initiatives by raising the bar on inclusive diversity, 
mindfulness, accountability, and transparency.
    In closing, engaging the entire workforce and sustaining the 
highest levels of integrity, accountability, and professionalism is 
paramount to promote and achieve the strategic vision we have for 
inclusive diversity. We understand that, while we have made significant 
progress, we still have more work to do to achieve a fully inclusive 
culture. As we move forward, we will continue to embrace workplace 
cultures that are fair, respectful, and value the unique contributions 
of each employee to enable all employees to reach their full potential. 
Rest assured that while each of our components has its own distinct 
homeland security mission and history, we are unified and steadfast in 
our goal--to safeguard the American people, our homeland, and our 
values, including embracing inclusive diversity in all its facets.
    Thank you again for the opportunity to testify today and I look 
forward to your questions.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Ms. Jones to summarize her statement for 5 
minutes.

STATEMENT OF YVONNE D. JONES, DIRECTOR, STRATEGIC ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Jones. Thank you. Chairwoman Torres Small, Ranking 
Member Crenshaw, Members of the subcommittee, thank you for the 
opportunity to be here today to discuss our work on the 
Department of Homeland Security's--DHS--efforts to ensure equal 
employment opportunity--EEO--in its work force.
    The Equal Employment Opportunity Commission--EEOC--requires 
that annually each Executive agency assess and report its 
efforts to promote EEO by completing Management Directive 715--
MD-715--report. DHS analyzes its work force data to help 
identify indicators of potential EEO barriers and DHS reports 
some improvements in representation of minorities and women and 
in employee engagement.
    DHS officials told us that minority representation was up 3 
percent and female representation was up 2 percent from 2015 to 
2019. Further, DHS's employee engagement scores increased from 
54 percent in 2014 to 60 percent in 2017.
    Recruitment is an important way to ensure an agency's work 
force reflects the relevant civilian labor force. Effectively, 
agencies need to examine applicant flow data. In July 2017, 
EEOC informed DHS that the agency's applicant flow data were 
incomplete, which makes it difficult to pinpoint barriers.
    Officials of DHS's Civil Rights and Civil Liberties 
Office--CRCL--told us that DHS is developing a new system to 
integrate applicant flow data Department-wide. However, they 
could not tell us when they expect the system to be completed.
    DHS does not have complete performance metrics for tracking 
progress toward eliminating its EEO barriers. CRCL officials 
stated they are not required to establish performance metrics 
beyond what is included in the Department-wide MD-715 report. 
But EEOC guidance states that agencies are not prevented from 
establishing additional practices that exceed its requirements. 
Implementing performance metrics could help DHS better assess 
its progress in eliminating EEO barriers.
    DHS and its components lack adequate staffing to address 
EEO program deficiencies because they do not have formal 
staffing models to assess staffing needs. However, MD-715 
guidance states that an agency must provide its EEO program 
with sufficient budget and staffing. Developing and utilizing 
formal staffing models for their EEO programs could help DHS 
and its components to better identify, request, and obtain the 
staff they need.
    From 2014 through 2017, EEOC found areas of noncompliance 
in DHS and its component EEO programs. We found that DHS 
components had not responded timely and completely to 
noncompliance identified in EEOC feedback letters.
    According to CRCL officials, they do not have policies and 
procedures to ensure that components have addressed EEOC's 
feedback letters completely and timely. However, MD-715 
guidance states that an agency's EEO director ultimately is 
responsible for ensuring equal opportunity throughout the 
agency.
    CRCL officials said they lack authority to ensure 
components' compliance with the EEOC requirements. But DHS has 
not taken steps to analyze options to address EEO program 
management weaknesses to ensure DHS components comply with MD-
715 guidance.
    While DHS has weaknesses, it has taken steps to address 
EEOC and GAO recommendations.
    In conclusion, as the third-largest U.S. Government 
department, the challenges DHS has faced to fully implement 
effective EEO programs may result in wide-spread negative 
consequences, such as monetary expenses borne by the agency due 
to workplace disputes and decreased morale.
    We found areas for improvements in DHS and its components' 
EEO programs that could help ensure success in compliance with 
MD-715. The commitment of DHS's leadership is essential to 
successfully addressing these issues.
    Chairwoman Torres Small, Ranking Member Crenshaw, Members 
of the subcommittee, this completes my prepared statement. I 
would be pleased to respond to any questions you may have at 
this time.
    [The prepared statement of Ms. Jones follows:]
                 Prepared Statement of Yvonne D. Jones
                           February 27, 2020
                             gao highlights
    Highlights of GAO-20-450T, a testimony before the Subcommittee on 
Oversight, Management, and Accountability, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    EEOC's Management Directive 715 requires that, to attract and 
retain top talent, Federal agencies are to identify EEO barriers in 
their workforces and deficiencies in their EEO programs, execute plans 
to address them, and report annually to EEOC. GAO reported in 2009 on 
DHS's opportunities to address barriers to EEO in its workforce and in 
2019 on DHS's challenges to ensuring EEO in its workforce.
    GAO was asked to testify on the steps DHS has taken to: (1) 
Identify and address barriers to EEO in its workforce, (2) identify and 
address EEO program deficiencies, (3) address areas of noncompliance in 
its EEO program identified by EEOC, and (4) oversee and support 
components' EEO programs. To do so, GAO summarized the findings 
discussed in its July 2019 report on DHS's EEO efforts and reported on 
DHS's actions taken to address recommendations. To obtain updates on 
actions taken by DHS, GAO reviewed relevant documentation and 
interviewed DHS EEO officials.
What GAO Recommends
    In its July 2019 report, GAO recommended that DHS take 6 actions, 
including develop performance metrics for the Department's EEO program; 
develop DHS and component formal staffing models; and analyze options 
for granting additional authorities to the most senior official for EEO 
and Diversity. DHS concurred with the 6 recommendations and described 
actions the Department plans to take to address them.
 equal employment opportunity.--dhs could better address challenges to 
                     ensuring eeo in its workforce
What GAO Found
    The Department of Homeland Security (DHS) uses multiple information 
sources to identify potential barriers to equal employment opportunity 
(EEO), but lacks performance metrics for tracking its progress toward 
eliminating identified barriers. DHS generally uses the information 
sources that the Equal Employment Opportunity Commission (EEOC) 
guidance recommends, such as employee survey results, to help identify 
potential barriers. While DHS reports some improvements in employee 
engagement and representation of minorities and women from fiscal years 
2014 through 2018, it does not have complete performance metrics, such 
as the retention rate of women in law enforcement positions. Using 
performance metrics could help DHS assess its progress in eliminating 
barriers.
    DHS and its components have identified various deficiencies in 
their EEO programs, but lack policies and procedures for developing 
action plans and formal staffing models to address deficiencies. For 
example, in each of the fiscal years 2015 through 2018, DHS reported 
that senior managers at DHS components did not successfully implement 
EEO action plans and incorporate EEO action plan objectives into agency 
strategic plans. Further, DHS components lacked action plans to address 
nearly half (179 out of 369) of the deficiencies self-reported by all 
components from fiscal years 2014 through 2017. For example, in fiscal 
year 2017, 4 DHS components did not have action plans to ensure that 
their EEO directors report directly to their agency heads, as required 
by EEOC guidance. Developing policies and procedures to help ensure 
components' EEO programs have action plans for addressing deficiencies 
could help DHS components better comply with EEOC requirements.
    In addition, developing and using formal staffing models--a tool to 
determine the number of staff required--for their EEO programs could 
help DHS and its components to identify, request, and obtain the staff 
they need. For example, DHS and its components reported that staffing 
challenges contributed to some of their program deficiencies, and 
acknowledged they did not have formal staffing models for their EEO 
programs.
    DHS has plans to address 9 areas of noncompliance in its EEO 
program identified by EEOC. In its July 2017 review of DHS compliance 
with EEOC requirements, EEOC found that DHS did not provide complete 
demographic data on new hires and promotions in its fiscal year 2016 
report to EEOC. DHS reported to EEOC that it had collected and analyzed 
such demographic data beginning in fiscal year 2019.
    DHS's EEO and human capital offices assist and support DHS 
components in identifying and addressing EEO barriers. However, DHS's 
EEO office lacks policies and procedures to ensure components respond 
timely and completely to areas of noncompliance identified in EEOC 
feedback letters. Additionally, DHS EEO officials said they lack 
authority to ensure components' compliance with EEOC requirements. 
Without addressing these issues, DHS may not be effectively positioned 
to manage its EEO program.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee: Thank you for the opportunity to be here today to 
discuss our work on the Department of Homeland Security's (DHS) efforts 
to ensure equal employment opportunity (EEO) in its workforce. Since 
DHS began operations in 2003, we designated implementing and 
transforming the agency as high-risk because it had to transform 22 
agencies--several with major management challenges--into one 
department. In 2013, we narrowed the scope of this high-risk area and 
focused on DHS's continued need to strengthen and integrate its 
management functions, including human capital management.
    DHS must attract, develop, and retain a high-quality workforce that 
can deliver security and results for the American people, and ensure 
the continued growth and prosperity of the Nation. Federal agencies, 
including DHS, must make full use of our Nation's talent by promoting 
workplaces that provide a fair and level playing field and the 
opportunity for employees to achieve their fullest potential. Equal 
Employment Opportunity Commission's (EEOC) Management Directive 715 
(MD-715) requires that, to attract and retain top talent, Federal 
agencies are to identify EEO barriers in their workforces and 
deficiencies in their EEO programs, execute plans to address them, and 
report annually to EEOC.\1\
---------------------------------------------------------------------------
    \1\ EEOC, Equal Employment Opportunity, Management Directive 715 
(Oct. 1, 2003). EEOC defines a barrier as an agency policy, procedure, 
practice, or condition that limits or tends to limit employment 
opportunities for members of a particular gender, race, or ethnic 
background, or for individuals based on disability status.
---------------------------------------------------------------------------
    In 2009, we reported that DHS had opportunities to better identify 
and address barriers to EEO in its workforce.\2\ Specifically, we found 
that DHS was not regularly including employee input in identifying 
potential barriers. We also found that it had not yet met most of its 
target completion dates for planned activities to address barriers. We 
recommended that DHS: (1) Develop a strategy to regularly include 
employee input in identifying potential barriers to EEO, and (2) 
establish interim milestones for completing planned activities to 
address identified barriers. By 2013, DHS had responded to our 
recommendations by including a strategy to regularly use employee input 
to identify barriers, and by identifying essential activities and 
establishing interim milestones to address barriers identified in its 
MD-715 reports.
---------------------------------------------------------------------------
    \2\ GAO, Equal Employment Opportunity: DHS Has Opportunities to 
Better Identify and Address Barriers to EEO in Its Workforce, GAO-09-
639 (Washington, DC: Aug. 31, 2009).
---------------------------------------------------------------------------
    This testimony is based primarily on our report that we recently 
issued entitled, Equal Employment Opportunity: DHS Could Better Address 
Challenges to Ensuring EEO in Its Workforce.\3\ It also includes 
selective updates we obtained in February 2020. I will discuss steps 
DHS has taken to: (1) Identify and address barriers to EEO in its 
workforce, (2) identify and address EEO program deficiencies, (3) 
address areas of noncompliance in its EEO program identified by EEOC, 
and (4) oversee and support components' EEO programs.\4\ For the 
report, we reviewed DHS's and its components' policies, procedures, 
practices, and reports for their EEO programs for fiscal years 2014 
through 2018; interviewed DHS and its component EEO officials; and 
assessed DHS employee survey results. We also reviewed EEOC's feedback 
on DHS's and its components' EEO programs, and interviewed EEOC 
officials. Our report contains a more detailed discussion of our 
objectives, scope, and methodology. For the updates, we reviewed 
documentation from DHS and interviewed Office for Civil Rights and 
Civil Liberties (CRCL) officials on the actions DHS has taken to 
implement the recommendations from our July 2019 report.\5\ We also 
added information from DHS's fiscal year 2018 MD-715 report to reflect 
the most current fiscal year data and status of the Department's EEO 
efforts.\6\
---------------------------------------------------------------------------
    \3\ GAO, Equal Employment Opportunity: DHS Could Better Address 
Challenges to Ensuring EEO in Its Workforce, GAO-19-573 (Washington, 
DC: July 24, 2019).
    \4\ As of fiscal year 2018, the 9 components that are required to 
submit their own MD-715 reports to EEOC are U.S. Customs and Border 
Protection, Federal Emergency Management Agency, Federal Law 
Enforcement Training Centers, DHS Headquarters EEO Office, U.S. 
Immigration and Customs Enforcement, U.S. Citizenship and Immigration 
Services, U.S. Coast Guard, U.S. Secret Service, and Transportation 
Security Administration.
    \5\ DHS's Office for Civil Rights and Civil Liberties, through the 
Deputy Officer for EEO and Diversity, is responsible for, among other 
things, establishing and maintaining EEO programs, and preparing and 
submitting DHS's annual MD-715 program status report to EEOC.
    \6\ U.S. Department of Homeland Security, EEOC Management Directive 
715 Equal Employment Opportunity Program Status Report, Fiscal Year 
2018 (Washington, DC: July 31, 2019). This is DHS's most recent MD-715 
report.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
    dhs uses multiple information sources to identify potential eeo 
                                barriers
    DHS generally uses the information sources that EEOC guidance 
recommends to help identify potential barriers. As directed by EEOC 
guidance, DHS analyzes its workforce data to help identify triggers or 
indicators of potential EEO barriers by comparing the racial, National 
origin, gender, and disability profiles of its total workforce, and for 
various occupational categories to relevant civilian labor workforce 
data. In addition to analyzing workforce data, in each of the fiscal 
years 2014 through 2017, DHS utilized the U.S. Office of Personnel 
Management's Federal Employee Viewpoint Survey and DHS's employee exit 
survey results to help identify and address barriers.\7\
---------------------------------------------------------------------------
    \7\ The Federal Employee Viewpoint Survey is a tool offered by the 
U.S. Office of Personnel Management that measures employees' 
perceptions of whether, and to what extent, conditions characterizing 
successful organizations are present in their agencies. The DHS exit 
survey is a tool used to obtain information on the top reasons that 
employees separate from the Department.
---------------------------------------------------------------------------
    To further help identify barriers, EEOC guidance states that 
agencies must solicit input from agency employee and advocacy groups, 
and union officials. During our small group discussions, DHS employee 
groups told us that through the MD-715 report development process, they 
helped identify and address triggers and barriers. For example, Special 
Emphasis Program Managers we spoke with told us that DHS components 
conduct climate surveys to obtain input from employees on workforce 
practices every 1 or 2 years.\8\ Further, several DHS components' MD-
715 reports referenced soliciting employee input, such as obtaining 
Disability Employment Program Managers' input via quarterly disability 
employment advisory council meetings where they share best practices 
and discuss issues and topics including barriers.
---------------------------------------------------------------------------
    \8\ According to DHS, Special Emphasis Program Managers advise and 
assist management officials in the identification, analysis, and 
resolution of policies, practices, and procedures which serve to create 
barriers to the hiring, advancement, and retention of minorities, 
women, and persons with disabilities, or other identified groups. EEOC 
requires 3 special emphasis programs: Federal Women's Program, Hispanic 
Employment Program, and Persons with Disabilities Program.
---------------------------------------------------------------------------
dhs reports some improvements in employee engagement and representation 
  of minorities and women, but lacks performance metrics for tracking 
                                progress
    DHS reports some improvements in employee engagement and 
representation of minorities and women. DHS's employee engagement 
scores in the Federal Employee Viewpoint Survey increased from 54 
percent in 2014 to 62 percent in 2019.\9\ In addition, our review of 
DHS's workforce data from fiscal years 2014 through 2017 showed that 
every minority group as well as individuals with disabilities and 
individuals with targeted disabilities had been trending in a positive 
direction since fiscal year 2014.\10\ Further, DHS officials told us 
that minority representation was up 3 percent and female representation 
was up 2 percent from 2015 to February 2019.
---------------------------------------------------------------------------
    \9\ According to the U.S. Office of Personnel Management, employee 
engagement measure factors that lead to an engaged workforce include 
supporting employee development and communicating agency goals. As we 
reported in January 2020, while DHS has made progress in improving its 
scores, in 2019, it remained 6 points below the Government-wide average 
for employee engagement. GAO, Department of Homeland Security: Employee 
Morale Survey Scores Highlight Progress and Continued Challenges, GAO-
20-349T (Washington, DC: Jan. 14, 2020).
    \10\ Individuals with disabilities are employees in the workforce 
who have indicated having a disability. EEOC defines targeted 
disabilities as deafness, blindness, missing extremities, partial 
paralysis, complete paralysis, convulsive disorders, mental 
retardation, mental illness, and distortion of limb and/or spine.
---------------------------------------------------------------------------
    According to EEOC, one important tool in examining the fairness and 
inclusiveness of an agency's recruitment efforts is applicant flow 
data.\11\ EEOC guidance states that having Department-wide applicant 
flow data could aid in analyzing differences in selection rates among 
different groups for a particular job. In July 2017, EEOC informed DHS 
that the agency's applicant flow data were incomplete, which makes it 
difficult to pinpoint barriers. DHS has reported challenges in 
collecting Department-wide data because the Department does not have a 
consolidated applicant flow data system. According to DHS, 4 of its 
components use 1 system (USA Staffing), while 5 other components use a 
different system (Monster Government Solutions).
---------------------------------------------------------------------------
    \11\ EEOC defines applicant flow data as information reflecting 
characteristics of the pool of individuals applying for an employment 
opportunity, including race, national origin, gender, disability 
status, and the disposition of all applications.
---------------------------------------------------------------------------
    CRCL officials told us that DHS is developing a new system to 
integrate applicant flow data Department-wide. However, the officials 
could not give us a time frame for when the system is expected to be 
completed. In its fiscal year 2018 MD-715 report, DHS reported that it 
continues to work toward developing a central repository for all 
applicant flow data. As a work-around, DHS officials said that it 
obtains these data directly from each component that uses Monster 
Government Solutions.\12\ In its fiscal year 2018 MD-715 report, DHS 
reported that it used applicant flow data to complete analyses, but it 
also reported a number of limitations, including that data were not 
available. In February 2020, CRCL officials told us that they plan to 
report complete applicant flow data in DHS's fiscal year 2019 MD-715 
report.\13\
---------------------------------------------------------------------------
    \12\ In its fiscal year 2018 MD-715 report, DHS reported that it 
extracted applicant flow data from USA Staffing to present them in the 
report.
    \13\ In January 2020, EEOC extended the deadline for submitting 
fiscal year 2019 MD-715 reports to April 3, 2020.
---------------------------------------------------------------------------
    DHS does not have complete performance metrics or mechanisms for 
tracking progress toward eliminating its identified EEO barriers, such 
as workplace satisfaction of white females or the retention rate of 
women in law enforcement positions. According to CRCL officials, they 
are not required to establish performance metrics or mechanisms for 
tracking progress toward eliminating barriers beyond what is included 
in the Department-wide MD-715 report. However, Standards for Internal 
Control in the Federal Government states that management should 
establish specific and measureable objectives, and ways to assess 
progress including performance metrics and milestones.\14\ Further, 
EEOC guidance states that agencies are not prevented from establishing 
additional practices that exceed its requirements. Implementing 
performance metrics could help DHS assess its progress in eliminating 
EEO barriers.
---------------------------------------------------------------------------
    \14\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, DC: Sept. 10, 2014).
---------------------------------------------------------------------------
    Accordingly, our July 2019 report included a recommendation that 
the Secretary of Homeland Security should develop performance metrics 
for the Department's EEO program including a mechanism for tracking 
progress toward eliminating barriers. DHS concurred with the 
recommendation and stated that it would implement it by April 30, 2020. 
In February 2020, CRCL officials told us they are working with DHS's 
Management Directorate to develop a potential overarching performance 
metric that, if approved, would be implemented beginning in fiscal year 
2021.
 dhs and its components have identified various deficiencies in their 
   eeo programs, but in some cases lack action plans to address them
    Our analysis of DHS's MD-715 reports found that the Department-wide 
EEO program did not meet about a quarter of the compliance measures for 
a model EEO program for each fiscal year from 2014 through 2017.\15\ 
For example, in each of the fiscal years 2015 through 2018, DHS 
reported that senior managers at DHS components did not successfully 
implement EEO action plans and incorporate EEO action plan objectives 
into agency strategic plans. In addition, our analysis of components' 
MD-715 reports showed that component EEO programs did not meet 9 
percent of the compliance measures for a model EEO program from fiscal 
years 2014 through 2017.
---------------------------------------------------------------------------
    \15\ The MD-715 report's self-assessment checklist is organized to 
track the essential elements of a model EEO program. According to DHS, 
although deficiencies are generally rolled up from component reports 
into the Department report, some measures specifically apply to 
components while other measures specifically apply to the Department.
---------------------------------------------------------------------------
    DHS components did not have action plans to address nearly half 
(179 out of 369) of the deficiencies self-reported by all components 
from fiscal years 2014 through 2017. For example, in fiscal year 2017, 
4 DHS components did not have action plans to ensure that their EEO 
directors report directly to their agency heads. EEOC guidance requires 
that for each deficient measure, agencies are to develop an action plan 
for correcting the deficiency.
    CRCL officials told us that DHS and its components' MD-715 reports 
met EEOC requirements for action plans for fiscal years 2014 through 
2017 by providing explanations for, or briefly stating plans to 
address, the majority of their deficiencies rather than developing 
action plans identifying how each deficiency would be addressed. 
Developing policies and procedures to help ensure components' EEO 
programs have action plans for addressing deficiencies could help DHS 
components better comply with EEOC requirements.
    DHS and its components lack adequate staffing to address EEO 
program deficiencies, in part, because CRCL and component EEO officials 
told us that they do not have formal staffing models to assess 
appropriate staffing of their EEO program sections.\16\ CRCL officials 
said that each component EEO program section is unique with its own 
assessments and measures by the leaders in charge of their funding and 
staffing resources. However, EEOC MD-715 guidance states that an agency 
must provide its EEO program with sufficient budget and staffing to be 
able to successfully implement various activities.\17\ Developing and 
utilizing formal staffing models--a tool to determine the number of 
staff required--for their EEO programs could help DHS and its 
components to identify, request, and obtain the staff they need.
---------------------------------------------------------------------------
    \16\ In DHS's fiscal year 2018 MD-715 report, 3 DHS components 
self-identified insufficient budget and staffing to support the success 
of aspects of their EEO programs.
    \17\ EEOC, Equal Employment Opportunity, Management Directive 715 
(Oct. 1, 2003).
---------------------------------------------------------------------------
    Thus, in our recently-issued report, we recommended that: (1) DHS 
component EEO Directors, in consultation with the Deputy Officer for 
EEO and Diversity, should develop policies and procedures to help 
ensure that their component EEO programs have action plans for 
addressing deficiencies in their MD-715 reports, and (2) the Deputy 
Officer for EEO and Diversity should develop a formal staffing model 
for its EEO program.\18\ DHS concurred with the recommendations and 
stated that it would implement them by April 30, 2020. In February 
2020, CRCL officials told us that they are developing policies and 
procedures for components to consider. They also told us that they are 
collaborating with the DHS Management Directorate to develop a formal 
staffing model for DHS's Department-wide EEO program.
---------------------------------------------------------------------------
    \18\ CRCL's deputy officer for EEO and diversity is the DHS 
official responsible for DHS's EEO activities. The deputy officer for 
EEO and diversity, along with the Secretary of Homeland Security (or 
its designee), is to certify DHS's MD-715 report before CRCL sends the 
report to EEOC.
---------------------------------------------------------------------------
    In addition, we recommended that DHS component EEO directors, in 
collaboration with the deputy officer for EEO and diversity, develop 
component formal staffing models. DHS concurred with the recommendation 
and stated that it would implement it by July 31, 2020. In February 
2020, CRCL officials told us that the DHS Management Directorate plans 
to work with components to develop formal staffing models for their 
individual EEO programs after the agency develops a formal staffing 
model for the Department-wide EEO program.
 dhs has plans to address the 9 areas of eeoc-identified noncompliance
    DHS has plans to address the 9 areas of noncompliance in its EEO 
program identified by EEOC. For example, in its July 2017 review of DHS 
compliance with EEOC requirements, EEOC identified that DHS did not 
provide complete demographic data on new hires and promotions in its 
fiscal year 2016 report to EEOC. In April 2019, DHS officials told us 
that the Department plans to report the data by collecting complete 
data from DHS components in fiscal year 2019. In its fiscal year 2018 
MD-715 report, which DHS sent to EEOC in July 2019, DHS stated that it 
had collected and analyzed demographic data on new hires and 
promotions.
 dhs's eeo and human capital offices use a variety of means to oversee 
and support components in identifying and addressing eeo barriers, but 
                  need to strengthen oversight efforts
    DHS's EEO and human capital offices assist and support DHS 
components in identifying and addressing EEO barriers. For example, 
CRCL meets with each component to obtain updates on their EEO efforts 
and provide verbal feedback as they develop their MD-715 reports. DHS 
components told us that they are generally satisfied with CRCL's 
collaboration practices to identify and address EEO barriers. For 
example, all 9 components required to submit MD-715 reports told us 
that CRCL regularly meets with them and provides guidance on 
identifying and addressing barriers.
    From fiscal years 2014 through 2017, EEOC found areas of 
noncompliance in DHS and its component EEO programs. We found that DHS 
components had not responded timely and completely to areas of 
noncompliance identified in EEOC feedback letters.\19\ According to 
CRCL officials, CRCL does not have policies and procedures to ensure 
that components have addressed EEOC's feedback letters in a complete 
and timely manner. However, EEOC MD-715 guidance states that an 
agency's EEO director ultimately is responsible for ensuring equal 
opportunity throughout the entire agency. In addition, Standards for 
Internal Control in the Federal Government states that management 
should implement control activities through policies.\20\ Developing 
policies and procedures for responding completely and timely to EEOC's 
feedback letters may help the Department comply with EEOC guidance.
---------------------------------------------------------------------------
    \19\ EEOC sends these letters as part of its oversight 
responsibility for Federal agencies' equal employment opportunity 
programs to assess their compliance with Federal EEO laws, regulations, 
and management directives.
    \20\ GAO-14-704G.
---------------------------------------------------------------------------
    CRCL officials said they lack authority to ensure components' 
compliance with EEOC requirements. Standards for Internal Control in 
the Federal Government states that an effective management practice 
includes periodically evaluating the agency's organizational structure 
to ensure that it meets its objectives.\21\ DHS has not taken steps--in 
consultation with EEOC and other agencies as relevant--to analyze 
options to address EEO program management weaknesses. Specifically, it 
has not analyzed alternatives for granting additional authorities to 
the deputy officer for EEO and diversity to ensure DHS components 
comply with MD-715 guidance, or assessed benefits and trade-offs of 
each alternative. Without addressing these issues, DHS may not be 
effectively positioned to manage its EEO program.
---------------------------------------------------------------------------
    \21\ Id.
---------------------------------------------------------------------------
    In our report, we recommended that the: (1) Deputy officer for EEO 
and diversity develop policies and procedures for responding in a 
complete and timely manner to EEOC's feedback letters, and (2) the 
Secretary of Homeland Security--in consultation with CRCL and EEOC, and 
other agencies and components, as relevant--analyze options for 
granting additional authorities to the deputy officer for EEO and 
diversity to ensure DHS components comply with MD-715 guidance, 
including the authority of the deputy officer for EEO and diversity to 
certify components' MD-715 reports.
    DHS concurred with the recommendations and stated that it plans to 
implement them by April 30, 2020. In February 2020, CRCL officials told 
us they are developing policies and procedures for responding in a 
complete and timely manner to EEOC's feedback letters. They also told 
us that a cross-component working group, with input from EEOC subject-
matter experts, is developing a report benchmarking best practices at 
similar Federal agencies that it expects to complete by the end of 
March 2020.
    In conclusion, as the third-largest U.S. Government department, the 
challenges DHS has faced to fully implement effective EEO programs may 
result in wide-spread negative consequences such as: (1) Monetary 
expenses borne by the agency in connection with workplace disputes and 
(2) decreased morale and productivity resulting from ineffective and 
inefficient use of human capital resources. We found areas for 
improvement in DHS and its components' EEO programs that could help 
ensure success and compliance with MD-715. The commitment of DHS's 
leadership is essential to successfully addressing these issues. By 
focusing leadership attention on developing performance metrics, 
policies and procedures, and staffing models, DHS and its components 
can help improve their EEO programs by making progress toward 
eliminating barriers, obtaining sufficient staffing, and addressing 
areas of noncompliance.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee, this completes my prepared statement. I would be 
pleased to respond to any questions you may have at this time.

    Ms. Torres Small. I thank both witnesses for their 
testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    We heard today about the steps DHS has taken to improve the 
diversity of its work force. I deeply want to acknowledge the 
work that has been done since 2009. I appreciate the efforts 
that you have put in place.
    As Ms. Bailey noted, DHS's work force as a whole is 
reasonably diverse, and thanks in large part to the diversity 
in the work forces at CBP and TSA. But I do disagree slightly 
with the comments about the diversity of leadership at the 
senior leadership level. The Department still struggles to 
promote women and racial minorities to leadership positions.
    For example, at TSA, which is generally quite diverse, 55 
percent of employees identify as minorities there. However, 
only 21 percent are in leadership positions.
    At DHS headquarters, 30 percent of employees are African 
American, but only make up 8 percent of leadership. Women make 
up less than a quarter of senior leaders at components like 
Secret Service and CBP, and across the entire Department women 
only hold 30 percent of leadership positions overall.
    Ms. Bailey, has DHS performed any analysis specifically to 
components like TSA and CBP which have a high work force 
participation for racial minorities that is not reflected among 
leadership?
    Ms. Bailey. Yes, actually, we have. So thank you for the 
question.
    One of the things that we do within our program is we meet 
with them on if not a monthly, but I think it is a quarterly 
basis with each of the components to really identify what are 
some of the opportunities that they might have to increase the 
pipeline, because one of the things that we found is that with 
our diversity within our SES, we firmly believe that building 
the diversity of the pipeline at the 14 and 15 level is 
significantly important for us.
    So we have deployed a few strategies to make sure that we 
get the word out and that they understand how they get, for 
example, into the SES CDP program, just to give you an example.
    So as a result of some of these specific tactical and 
strategic efforts that we have had, we have actually increased 
our pipeline, and we have been very pleased about that. So in 
our pipeline, while we have 30 percent women in SES, our 
pipeline is at 36 percent. While we are 22 percent diverse in 
our SES, 34 percent diverse in our pipeline, just to give you 
an example.
    So what we have found is by building up the pipeline, by 
giving them the opportunities, especially for our lower-graded 
employees, creating career paths for them, giving them 
rotational opportunities, et cetera, we are able to build a 
more diverse SES.
    Ms. Torres Small. Ms. Bailey, what specific analyses have 
you done to create those findings or to establish those 
findings?
    Ms. Bailey. Oh, yes. So with regard to the specific 
analysis, we have actually gone in and we dissect every single 
ounce of the data that we have available to us. So we can pull 
all of the demographic data, we can pull it by region, we can 
pull it locally or by not just the specific component, but 
within the organization.
    Ms. Torres Small. Have you talked to employees about what 
is keeping them from entering that pipeline at the 13 and 14 
level?
    Ms. Bailey. Yes. In our conversations with our employees, 
some of the things go to--actually, it was some of the things 
you mentioned in your opening statement.
    Ms. Torres Small. I am sorry, was there a comprehensive 
analysis? Did you produce any reports about it?
    Ms. Bailey. No, we did not produce a report. Instead, what 
we did is we just kind-of gathered the information, it is 
within my office, but it wasn't done as a report.
    Ms. Torres Small. Was it a questionnaire for the entire--
for TSA-wide or CBP-wide or just anecdotal conversation?
    Ms. Bailey. Right. It was more focus groups. Like sitting 
down with them and listening. Also working with the Diversity 
and Inclusion Steering Committee that we have with all of the 
components so that we can dig in a little bit deeper and 
understand what are the barriers that are keeping some of them 
from actually progressing within their career.
    Ms. Torres Small. Thank you. I appreciate the anecdotal 
work you have there. I think formalizing it could help capture 
people who aren't always listened to or included in those 
conversations and maybe some of the folks you are missing when 
it comes to pipelines.
    Switching now to the mentorship program for women in law 
enforcement. Ms. Jones, GAO's report noted that DHS did not 
have performance metrics to track the retention rate of women 
in law enforcement positions. How has the Department responded 
and addressed this issue, if at all?
    Ms. Jones. We did include a recommendation in our report 
saying that we thought that the Secretary should work with the 
different units in the Department to develop performance 
metrics. So DHS did agree with that recommendation.
    We spoke to appropriate officials at DHS earlier this 
month. They informed us that they are developing a proposal for 
performance metrics, that it will be examined by the 
appropriate units in DHS, and they do hope that they will have 
developed a proposal by the end of this fiscal year.
    Ms. Torres Small. The end of this fiscal year is the 
deadline?
    Ms. Jones. Pardon?
    Ms. Torres Small. The end of this fiscal year is the 
deadline?
    Ms. Jones. Yes, that is the deadline that they indicated.
    Ms. Torres Small. Thank you.
    My time has expired. I now recognize for 5 minutes the 
gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Chairwoman.
    Ms. Jones, in your testimony I saw a lot of mentions of 
barriers and the importance of identifying and addressing those 
barriers. So I want to get a better understanding of how you 
define what constitutes a barrier and how you differentiate 
between intentional barriers to promotion or hiring and 
unintentional barriers and what you have identified at DHS.
    Ms. Jones. OK. Well, a barrier--EEOC defines barrier as a 
policy, a program, procedures, actions that may prevent 
individuals in some groups from having the same kind of 
opportunities, whether that is for hiring or promotion. Not 
having the same opportunities as other groups in an 
organization.
    Mr. Crenshaw. What did you identify? Let's first start with 
intentional barriers. Were there any intentional barriers 
identified?
    Ms. Jones. We did not.
    Mr. Crenshaw. Then what about unintentional barriers? So 
what exactly should we be looking at?
    Ms. Jones. OK. So as I said, we didn't really identify 
intentional barriers. DHS itself identified barriers, and they 
define them as problems with supervision and management or lack 
of advancement opportunities for some groups of staff, lack of 
alternative work schedules. They also indicated that jobs in 
some certain geographic locations, certain ethnic groups were 
not applying in the same number or being hired in those 
locations.
    Mr. Crenshaw. OK.
    Ms. Jones. They did identify barriers for people with 
disabilities or targeted disabilities for certain positions in 
law enforcement, that there are medical and physical 
requirements that would be difficult for them to----
    Mr. Crenshaw. Like they won't hire somebody with one eye or 
something like that? It is a joke. You can laugh.
    Ms. Jones. OK.
    Mr. Crenshaw. So I will let Ms. Bailey then finish.
    If DHS is the one that actually answered those questions, 
then maybe you could expand on that list as well, Ms. Bailey.
    Ms. Bailey. Yes, certainly.
    So with regard to intentional, I want to just be really 
clear that we do not have intentional barriers.
    Mr. Crenshaw. Yes, that is good. We should clear that up. 
That is why I asked.
    Ms. Bailey. We do not have intentional barriers.
    There are always going to be these unintended consequences 
of some of the positions, some of the locations, some of the 
things that we know that are going to be a barrier for women, 
as an example.
    So one of the things that we have done is really started to 
dissect. This is where--I testified about this before--but this 
is where our Employee and Family Readiness Council really kind-
of comes into play here. This is where going out and actually 
talking to people and finding out what it is that is creating a 
barrier for them and then addressing that.
    So if it is things such as the remote locations, for 
example, down on the border locations, then implementing 
vocational programs that allow them after a couple of years the 
opportunity to go to a more urban area so that they can make 
sure that their spouses have employment, or they can make sure 
that they have access to quality health care and things like 
that. So that is one area that we have recognized.
    Mr. Crenshaw. But does something like that affect 
diversity? I mean, would a factor like that affect one 
demographic group over another? It seems like that would affect 
everybody.
    Ms. Bailey. Yes, it would. You are absolutely right. It 
would affect--it can affect everyone, right? It really depends 
on the individual and things.
    So I am not really trying to just call it out to be women, 
and that probably was a mistake on my part, is to say that we 
tried to actually implement those kinds of programs so that we 
could allow people the opportunity to actually advance, if you 
will.
    So we also, though, have identified with regard to 
supervisors in leadership, then we need to synchronize all of 
our efforts between our leadership development programs, our 
employee and family readiness programs, our inclusive diversity 
programs, our engagement programs, because there cannot be all 
these one-off programs that are all trying to attack and do the 
same thing.
    So by synchronizing these efforts and being very clear and 
deliberate on what are the things that we want to deploy and 
make sure that are available for all of our employees, then 
what we found is that we are able then to raise up their 
opportunities across the board.
    Mr. Crenshaw. I am running out of time, so I will actually 
stop there and maybe--well, maybe my last question would be, 
what are the goals with respect to diversity? Is it simply 
removing the barriers? Or are there proportional quotas that we 
are actually looking for as well? Have those ever been 
identified?
    Ms. Bailey. No, we cannot have quotas.
    So there are a couple of things here, and I would like to 
say it this way. With diversity, we are not after filling 
Noah's Ark. It cannot be that if you have 2 of everything, 
therefore we are diverse.
    To be honest, the most important thing for us is, is once 
we get people on board, regardless--and, again, 1 out of every 
2 DHS employee has identified themselves as being in some type 
of diverse category. That doesn't even cover things like 
generational diversity, right, or neurodisability, such as 
autism and things like that.
    So the definitions that we have are old-school. We need to 
actually get new-school definitions of what diversity is really 
all about.
    But for us within DHS, once we have folks on board, then it 
becomes in a way a colorblind kind of situation for us. What we 
are really looking for instead is ensuring that they feel 
included, that they feel like they are cared for, that they 
understand that we have a compassionate need for what they are 
doing.
    Then, therefore, that helps them, we believe, not only do 
we then have operational readiness, but it helps them provide 
caring and compassionate service to the American public that 
they serve.
    Mr. Crenshaw. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Torres Small. Want to go for another quick round? OK. I 
will recognize myself for another 5 minutes.
    Just quickly, I appreciate the discussion my colleague was 
having about the barrier analysis that was done by DHS. TSA 
successfully did a barrier analysis.
    However, there were other components, like FLETC and Secret 
Service, that did not. In 2017, EEOC provided notice of 
noncompliance to 6 of 8 DHS components and required 5 of those 
to establish plans to correct those EEO deficiencies.
    So 3 of those components, CBP, FEMA, and USCIS, never 
provided a timely response to EEOC.
    So, Ms. Bailey, what actions has the DHS headquarters taken 
to coordinate with the components to ensure that they comply 
with the EEOC requirements?
    Ms. Bailey. So to speak within my program area, I can tell 
you that one of the things that we are doing is, and I had 
mentioned this a little bit earlier, but we sit down with each 
component now and go over what are the barriers, not only to 
recruiting----
    Ms. Torres Small. Are you saying that complying with EEO 
requirements is not within your area?
    Ms. Bailey. Yes, correct. So as the CHCO, the Civil Rights 
and Civil Liberties, our executive director, that would fall 
under their purview. But I want to be clear that we work in 
partnership together to address these things.
    But I just want to make sure that I am speaking just for 
the areas that I am responsible for. So with regard to that----
    Ms. Torres Small. That is fine. That answers the question, 
that you don't take on that responsibility. For that, you have 
allowed Civil Rights and Civil Liberties to enforce those 
requirements.
    Ms. Bailey. That is correct.
    Ms. Torres Small. OK. Moving on just quickly, also I 
appreciate your comment about not wanting to work in silos and 
finding ways to address the challenges.
    I do appreciate you noting the challenges in hiring in 
remote or hardship areas and finding some ways to prioritize 
that. So that is something you have heard from CBP officers and 
agents, for example?
    Ms. Bailey. Yes, absolutely. We have done a tremendous 
amount of listening tours where we have gone out and sat down. 
So I do appreciate your comment about making sure that this is, 
like, captured somewhere and in a report.
    But I will tell you there is nothing more powerful than 
sitting down with someone eyeball-to-eyeball and having a 
conversation with them and really understanding what the issues 
are, or what are the underlying issues, versus just sending out 
a survey and they can check ``yes'' or ``no'' or 1 through 5, 
how happy are they kind of thing. We don't really get to then 
understand what their issues are.
    By doing so, we were able to discover things like----
    Ms. Torres Small. So, Ms. Bailey, I appreciate that. Just 
to follow up on that, because I do agree that eyeball-to-
eyeball conversations can help you truly understand the 
challenges folks are facing. Then the question is, what do you 
do with that information?
    Have you made a recommendation to CBP that they allow, for 
example, after serving in hardship areas, to have 
prioritization in being located in another place within the 
sector.
    Ms. Bailey. Yes, absolutely, and it is something that they 
are actually adopting. One of the other things that they are 
doing, as an example, is take child care. Rather than just a 
subsidy, they are looking at things like how do we provide 
child care that goes beyond the typical 9 to 5, just as an 
example.
    So they--CBP is very good about taking the information that 
we are gathering because they are there with us when we do 
these listening tours. We don't go out by ourselves. So they 
kind-of have a list and they are going through the list. They 
have one of probably the topnotch programs when it comes to 
resiliency and trying to do the best that they can for their 
employees.
    Ms. Torres Small. It is something I am deeply focused on as 
well, representing one of the most rural places along the 
border. I represent about 179 miles of the U.S.-Mexico border, 
and finding those solutions in recruitment and retention is 
deeply important to the success of the security of our borders.
    With that, I will yield the remainder of my time and 
recognize for any additional questions my colleague from Texas, 
the gentleman, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    I just have one more I want to bring up, which was the 
Inclusion Quotient or index in the Federal Employee Viewpoint 
Survey. Ms. Bailey said 54 percent of employees responded 
positively to the work force environment questions. How does 
that compare to the rest of the Federal Government? How are we 
doing?
    Ms. Bailey. With regard to the rest of the Federal 
Government, I think that we are slightly below, but we have 
made tremendous progress. So we have gone up 5 percentage 
points in the last 4 years.
    But it is absolutely an area of room for improvement for 
us. We don't, like, kind-of gloss over that and say that it is 
not. So, again, one of the things that we are doing is making 
sure that we are getting our efforts as synchronized as 
possible so that we can go after what is the most important 
things for our employees to make sure that they felt that they 
are cared for in a very compassionate way.
    Mr. Crenshaw. OK. Well, you know what? Actually I will go 
back to our previous conversation about barriers. So we have 
identified a couple, but it was such a short conversation. I 
want to get maybe a couple more examples from you on barriers 
identified that maybe prevent promotion or hiring and some 
concrete examples or ideas of how we plan to fix that.
    Ms. Bailey. OK. So with regard to--I will give you an 
example of one of the barriers.
    One of the things that we are trying to do with regard to 
students--this is probably one of the best examples of why 
things are kind-of broken, and we really appreciate your 
support on our Enhanced Hiring Act. One of those has to do with 
at the Coast Guard, at our shipyard in Baltimore, we actually 
have these wonderful mentoring, coaching, internship programs 
with some of the schools within Baltimore in the public 
schools.
    We have the diversity to see young African American women 
who are being trained to be welders and painters and 
electricians, and young Hispanics being able to get just a 
wonderful career opportunity.
    Then whenever we go to, like, convert them or be able to 
give them the opportunity to actually work for us full-time in 
the Coast Guard, we have to then turn around and say to them: 
Hey, by the way, why don't you go apply on USAJobs with a 
thousand other people? Then they don't even make the certs for 
the very jobs that we provided them an opportunity for, 
interned them, and also provided them, you know, wonderful 
coaching and mentoring.
    So it is shameful that we have rules on the books that 
don't even allow us the opportunity to give kids an 
opportunity, come in, and then tell them that they have to 
throw that career away because they did not make the cert.
    Mr. Crenshaw. So we are actually training them in those 
skill sets as contractors? Is that----
    Ms. Bailey. No, as Federal employees.
    Mr. Crenshaw. As Federal employees, but they can't then 
apply to the Coast Guard?
    Ms. Bailey. They can apply, but they are applying with a 
thousand other people, right?
    Mr. Crenshaw. Right. Right. USAJobs. Yes, we know.
    Ms. Bailey. So what happens then is that they are not going 
to--typically they are not going to then make the list. They 
are not going to be able to--you know, maybe they don't know 
how to write their resume correctly or whatever the answer 
might be.
    So what are we doing about that? We are saying, OK, these 
are the rules. So now we sit down with them and we help them. 
Here is how you write a Federal resume. Here are the things 
that you need to do.
    The other thing that we are doing is rather than just 
having the H.R. office now say whether they are qualified or 
not, no, give it to the actual welder who is at the Coast Guard 
and let them decide who is qualified to be a welder and stuff. 
So in other words, engaging the subject-matter expert.
    So while it irritates me that we cannot have a simplified 
way of getting students on board into DHS, we are not going to 
let it be an excuse for why we are not going to do everything 
in our power to get these kids into these really exceptional 
careers.
    Mr. Crenshaw. Great to know. Thank you.
    I yield back the balance of my time.
    Ms. Torres Small. Thank you.
    The Chairwoman now recognizes for 5 minutes the gentlewoman 
from California, Ms. Barragan.
    Ms. Barragan. Thank you.
    Ms. Jones, in July 2019--rather, the July 2019 report on 
DHS's Equal Employment Opportunity Program, GAO found that DHS 
was not fully tracking data on the demographics of its job 
applicants, such as their race and sex, which is important for 
identifying and addressing potential recruitment and outreach 
barriers. According to the same report, DHS reported challenges 
in collecting Department-wide data that could help identify 
potential barriers.
    Can you tell us more about the importance of this data, 
especially in the context of an EEO program, and what are the 
challenges that DHS faces in collecting and using this data?
    Ms. Jones. Yes, I can.
    So, first of all, the demographic data is really important. 
I mean, the technical term is applicant flow data. But having 
comprehensive data, and an agency having the capability of 
analyzing it, means that they get some sense of whether their 
recruitment efforts are working or not because they can see who 
is applying to what positions and they can get a sense of the 
efficiency and inclusivity of their efforts.
    One of the challenges at DHS is that they don't have 
Department-wide applicant flow data. They have two different 
applicant systems with different data. So what they have to do 
is more--I would call it more manually take data from the two 
systems and then compare it and analyze it.
    So one of our recommendations in our July report was that 
they develop a Department-wide system. As a matter of fact, 
they have agreed with that and they are going to try to develop 
that kind of system. But it will require the support of DHS 
leadership to develop that system.
    Ms. Barragan. Do we know if it is a matter of resources or 
time or what the barrier is to get it moving?
    Ms. Jones. We were told partly that it is a matter of 
resources, which would be both budget and staff.
    Ms. Barragan. OK. According to an internal study conducted 
in 2018, DHS found that several minority groups, women, and 
people with disabilities were leaving the Department in higher 
than expected rates. The top 3 reasons for departures among 
these groups were: No. 1, problems with supervision or 
management; No. 2, lack of advancement and opportunities; and 
No. 3 was personal or family-related reasons.
    Ms. Jones, do you believe DHS is doing enough to address 
these issues?
    Ms. Jones. I think DHS is certainly aware of them and that 
they are taking steps to address them.
    We cannot be sure, and I think DHS cannot be sure if it is 
doing enough, because it doesn't have performance metrics which 
would allow it to assess what it is doing against its ultimate 
objectives.
    So that is why we recommended that the Department develop 
performance metrics which would allow it to assess progress 
against all of the goals that it sets for itself and against 
the issues that it identifies when it does its MD-715 analysis 
for the Department and for each component.
    Ms. Barragan. How long have you been in your position as 
the Director?
    Ms. Jones. Pardon?
    Ms. Barragan. How long have you been in your current 
position?
    Ms. Jones. Sixteen years.
    Ms. Barragan. In your 16 years, have you seen more women at 
the top at the decision-making table? Have you seen 
improvements?
    Ms. Jones. You mean at DHS?
    Ms. Barragan. Yes.
    Ms. Jones. Or across the Federal Government?
    Ms. Barragan. Well, let's stick with DHS.
    Ms. Jones. Well, I actually--I have to say that we did not 
look at that particular issue at DHS. We do know that there are 
more women at the top. But our report was focused on the 
processes and procedures for completing their MD-715 reports. I 
would have to defer to Ms. Bailey in terms of actual numbers of 
increases of women.
    Ms. Barragan. OK.
    Ms. Bailey, you may have heard about the 2018 internal 
study where I listed the 3 reasons people were leaving at 
higher rates. What steps is the Department taking to address 
each of these areas, the 3 areas that I mentioned?
    Ms. Bailey. Thank you for your question.
    So with regard to the 3 areas--and I had mentioned this a 
little bit earlier--but we are synchronizing our efforts with 
regard to this.
    So with regard to supervision, we had, I think it was 2 
years ago, the Year of the Leader, where we put a concerted 
effort into all of our leadership development programs. It is 
not just for our SES, but we also created a Bridges program and 
a few other programs and a joint fellows program so that we 
could get down at the 11, 12, 13, 14, 15 level and not just the 
SES.
    So our goal is to build a cadre of leaders at a level that 
is lower than just at the SES level so that we can create these 
career advancement opportunities, and also to focus in on the 
leadership development for our current leaders, and not just 
about the nuts and bolts of how to be a supervisor, but 
actually how to care for the employees, how to make sure that 
we address what their concerns are, so that we can actually 
make sure that they can carry out their missions.
    I think the third one was the family issues, I think was 
the third one. With regard to that, we put a concerted efforts 
into our Employee and Family Readiness program to ensure that 
we are addressing their needs.
    Ms. Torres Small. Thank you, Ms. Bailey.
    The gentlewoman's time has expired.
    Ms. Barragan. Thank you. I yield back.
    Ms. Torres Small. I thank all the witnesses for their 
valuable testimony and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions. Without objection, 
the committee record shall be kept open for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
